No. 21-268

In the Supreme Court of the United States
COVERALL NORTH AMERICA, INC.,
Petitioner,
v.
CARLOS RIVAS, IN HIS CAPACITY AS
PRIVATE ATTORNEY GENERAL REPRESENTATIVE,
Respondent.

CERTIFICATE OF SERVICE
I, Andrew J. Pincus, certify that on the 23rd day of September, 2021, I caused
three copies of the Brief of the Chamber of Commerce of the United States of America
and National Retail Federation as Amici Curiae In Support of Petitioner to be served
by mail on the following counsel:
Norman Leon
DLA Piper LLP
444 West Lake Street, Suite 900
Chicago, IL 60606
(312) 368-4000
norman.leon@dlapiper.com
Counsel for Petitioner

Shannon Liss-Riordan
Adelaide Pagano
Lichten & Liss-Riordan, P.C.
729 Boylston Street, Suite 2000
Boston, MA 02116
(617) 994-5800
sliss@llrlaw.com
apagano@llrlaw.com
Counsel for Respondent

I further certify that all parties required to be served have been served.

Dated: September 23, 2021
Andrew J. Pincus
Mayer Brown LLP
1999 K Street, N.W.
Washington, DC 20006-1101
(202) 263-3000
apincus@mayerbrown.com

